COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-431

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,

Petitioner,

Legal Briefs

Est. 1923

v.
THE COMMONWEALTH OF PENNSYLVANIA
AND THE STATE OF NEW JERSEY, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of November, 2019, send out
from Omaha, NE 4 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE FIRST LIBERTY INSTITUTE IN
SUPPORT OF THE PETITION in the above entitled case. All parties required to be served have been served by Priority

Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KELLY J. SHACKELFORD
Counsel of Record
HIRAM S. SASSER, IIT
STEPHANIE N. TAUB
KEISHA T. RUSSELL
LEA E. PATTERSON
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae

Subscribed and sworn to before me this 1st day of November, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

 

Affiant

38851
#19-431; Little Sisters of the Poor Saints Peter and Paul Home v. Pennsylvania, et al.
Service List

Attorneys for Petitioner

Mark Leonard Rienzi

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., NW, Suite 700

Washington, DC 20039

202-239-7208

mrienzi@becketlaw.org

Party name: The Little Sisters of the Poor Saints Peter and Paul Home

Attorneys for Respondents

Michael J. Fischer

Pennsylvania Office of Attorney General

600 Arch St., Suite 300

Philadelphia, PA 19103

215-560-2171

mfischer@attorneygeneral.gov

Party name: Commonwealth of Pennsylvania, et al.

Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: Federal Respondents

Other

Dwight Gerard Duncan

University of Massachusetts

School of Law

333 Faunce Corner Road

North Dartmouth, MA 02747

508-985-1124

dduncan@umassd.edu

Party name: Residents and Families of Residents at Homes of the Little Sisters of the Poor
